2311 Douglas Street

Ti
C@QCKLE

Le ga | Brie fs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19

KEVIN W. CULP, MARLOW DAVIS, FREDDIE REED-
DAVIS, DOUGLAS W. ZYLSTRA, JOHN S. KOLLER,
STEVE STEVENSON, PAUL HESLIN, MARLIN
MANGELS, JEANELLE WESTROM, SECOND
AMENDMENT FOUNDATION, INC., ILLINOIS CARRY
AND ILLINOIS STATE RIFLE ASSOCIATION,
Petitioners,
v.
KWAME RAOUL, in his Official Capacity as Attorney
General of the State of Illinois; BRENDAN F. KELLY, in
his Official Capacity as Acting Director of the Illinois State
Police, and JESSICA TRAME, as Bureau Chief of the
Illinois State Police Firearms Services Bureau,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 10th day of October, 2019, send out
from Omaha, NE | package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
DAVID G. SIGALE
LAW FIRM OF DAVID G. SIGALE, P.C.
799 Roosevelt Road, Suite 207
Glen Ellyn, IL 60137
630.452.4547
dsigale@sigalelaw.com

Subscribed and sworn to before me this 10th day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘ Chby
State of Nebraska “* .

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38416
Sarah A. Hunger, Esq.

Assistant Attorney General

100 West Randolph Street, 12th Floor
Chicago, IL 60601

(312) 814-7122
shunger@atg.state.il.us

Counsel for Kwame Raoul (Ill. AG), Jessica Trame,
and Brendan F. Kelly (Director, Ill. St. Police)
